                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-32                                    Office of Inspections                                       June 2013




                   Inspection of
      the Regional Support Center Frankfurt,
                     Germany




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

      Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

      Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

      Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                       i
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                 Table of Contents
Key Judgments                                           1
Context                                                 2
Executive Direction                                     3
Policy and Program Implementation                       4
  Administrative Support Visits                         4
  Locally Employed Staff Position Classification        4
  Management Initiatives                                5
  Locally Employed Staff Training                       7
Resource Management                                     8
  Current Staffing                                      8
  General Management Issues                             8
  Human Resources Management                            9
List of Recommendations                                11
List of Informal Recommendations                       13
Principal Officials                                    14
Abbreviations                                          15




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Judgments
      The Bureau of European and Eurasian Affairs (EUR) created the New Post Support Unit
       in 1992 in Bonn, Germany, to provide administrative services to newly established
       European embassies; the unit has since evolved into the Regional Support Center (RSC)
       Frankfurt. The needs of the serviced posts have also changed, and the RSC’s mandate
       should be reviewed in that context.

      RSC Frankfurt continues to provide administrative support visits throughout Europe with
       teams of up to seven people. Because these embassies are now fully staffed and trained,
       this service is no longer essential. If these visits were eliminated, two U.S. direct-hire and
       three locally employed (LE) staff positions could be eliminated, at a savings of $1.25
       million in U.S. direct-hire and LE staff salaries and an estimated $230,000 per year in
       airfare and per diem costs.

      As the need for regional support has diminished, RSC Frankfurt has shifted focus to
       software development and testing innovative management concepts for EUR. These new
       activities have proved successful and should be continued.

      RSC Frankfurt trains LE staff from Europe, the Middle East, and Africa. By maximizing
       use of adjunct faculty, RSC Frankfurt could expand training while reducing staff by two
       LE staff positions.

      RSC Frankfurt classifies LE staff positions for 98 posts in Europe and the Middle East.
       The RSC performs this function successfully.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the Office of Inspector General (OIG) team did not identify problems that need to
be corrected.

The inspection took place in Washington, DC, between December 15, 2012, and February 1,
2013, and in Frankfurt, Germany, between February 5 and 22, 2013. [Redacted] (b) (6)
                                                                       conducted the
inspection.




                                        1
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Context
        This inspection focused on EUR’s RSC Frankfurt, located at the 23-acre U.S. Consulate
General Frankfurt complex. The consulate general’s 17 buildings and more than 750,000 square
feet of office space provide an effective platform for regional activities. RSC Frankfurt supports
primarily European diplomatic missions but has expanded its scope of services to include
position classification and training support to the Middle East and Africa as well.

        EUR established a support unit in 1992 at Embassy Bonn to provide management support
to newly established embassies in the former Soviet Union and Yugoslavia. When the embassy
moved to Berlin in 1998, the support unit moved to Frankfurt, was renamed as RSC Frankfurt,
and began providing management services throughout Europe. RSC Frankfurt continues to
provide many of the services started in 1992, including administrative support visits for EUR
missions. In addition, the RSC has expanded its mandate to serve as a test bed for innovative
management concepts, including the Web-Based Resource Allocation and Budget Integration
Tool (Web RABIT) and the Contact Management Database (CMD). Although the Department of
State (Department) has embraced these activities, it has not fully integrated them into existing
Department programs.

       RSC Frankfurt has a staff of 9 Foreign Service personnel and 18 LE staff members. In
addition, the RSC calls upon the expertise of its 32-member executive corps, composed of
experienced LE staff members across Europe who provide temporary help. RSC’s FY 2012
budget, excluding American salaries, was $3 million.




                                        2
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Executive Direction
       RSC Frankfurt has expanded its original focus on embassies formed out of the former
Soviet Union and Yugoslavia to all of EUR and beyond. At the same time, it has taken on new
functions, such as regional LE staff position classification, software development, and modeling
new management initiatives that benefit the Department as a whole.

       OIG customer service questionnaires for RSC Frankfurt were uniformly favorable.
Employee surveys reflected positive morale and job satisfaction. Department regional bureau
executive directors gave the RSC positive ratings as well.

       Although RSC Frankfurt leadership performs well, it is time for EUR and the RSC to
evaluate their core functions in light of the current needs of posts and bureau priorities. For
example, RSC Frankfurt’s large-scale administrative support visits to other European posts are
no longer required. At the same time, its training of LE staff in three geographic bureaus should
be expanded. RSC Frankfurt staffing levels need to be adjusted to reflect the RSC’s changing
role.

       RSC Frankfurt leadership is aware of the need to review its mission but will require
guidance from EUR, the Office of Management Policy, Rightsizing, and Innovation (M/PRI),
and other senior managers within the Department. The RSC can and should be a platform that
promotes creative problem-solving in the management field for the entire Department.




                                        3
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
        RSC Frankfurt’s training and development of innovative programs have resulted in
significant cost savings to the Department. Additional savings can be generated by eliminating
assistance visits to EUR posts. LE staff member position classifications also can be performed
more cost effectively elsewhere. A plan to maintain institutional memory and shape an
appropriate staffing configuration for the future is needed to provide greater focus.

Administrative Support Visits

         RSC Frankfurt’s administrative support visits were developed to compensate for the lack
of experienced LE staff in the embassies of the former Yugoslavia and the newly independent
states of the former Soviet Union. Now that these embassies are fully established and have
experienced LE staff, these visits are no longer needed. Posts are under no obligation to
implement recommendations resulting from the visits, and EUR does not systematically follow
up on the recommendations. No other regional bureau in the Department provides such a service
from an overseas platform.

        In 2012, RSC Frankfurt conducted 60 routine post assistance visits at a cost of
approximately $230,000. Discontinuing such visits would save travel costs, as well as eliminate
the need for five positions: a general services officer, a financial management officer, two LE
financial management specialists, and an LE human resources specialist. These positions
represent $1,247,234 that could be put to better use.

Recommendation 1: The Bureau of European and Eurasian Affairs should discontinue
Regional Support Center Frankfurt’s post assistance and review visits. (Action: EUR)

Recommendation 2: The Bureau of European and Eurasian Affairs, in coordination with the
Bureau of Human Resources, should eliminate financial management officer position 57-
500000010, human resources officer position 57-507000 020, and general services officer
position 52- 010124 010. (Action: EUR, in coordination with DGHR)

Recommendation 3: The Bureau of European and Eurasian Affairs should eliminate two locally
employed financial management analyst positions and one human resources specialist position.
(Action: EUR)

Locally Employed Staff Position Classification

        RSC Frankfurt began regional job evaluation of local staff positions in 2006 to
standardize position classifications for EUR’s small and medium-sized missions. Two human
resources officers and five classifiers provide these services. The program has grown to include
98 missions across 3 regional bureaus. In FY 2012, RSC Frankfurt staff processed more than 500
job classification requests.

      Each embassy has the authority to evaluate its own LE staff positions up to grade 12.
RSC Frankfurt performs the review of LE staff position classifications only upon request. The
Bureau of Human Resources told inspectors that the quality of RSC Frankfurt’s classifications is

                                       4
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

high and that it has overturned only one RSC classification to date. Preliminary data provided by
RSC Frankfurt staff indicate that the RSC upgrades significantly fewer of the positions it reviews
compared to embassy personnel performing the same function in house. A recent RSC Frankfurt
review of one embassy identified 40 positions that it judged were overclassified. RSC Frankfurt-
developed data, if supported by information the embassies provide, indicate that centralizing the
LE staff position evaluations could strengthen the evaluation system, provide more uniformity in
position grades, and control costs. Data from both RSC Frankfurt and embassies will help the
Bureau of Human Resources choose the best platform for performing LE position classification.

Management Initiatives

Software Development

        RSC Frankfurt has developed two software applications—one for budgets and the other
for contacts management—which are now in use throughout the Department and overseas.
Although their development was successful and at low cost, both applications would have
benefited from coordination with the Bureau of Information Resource Management (IRM).

        Web RABIT, a budget application developed in RSC Frankfurt and tested in EUR, is
used by missions worldwide. The application is now the purview of the Bureau of Budget and
Planning, which plans to integrate it into the bureau’s 2014 Mission Resource Request process.
Although the program has been successful, RSC Frankfurt and IRM did not coordinate
effectively during its development. Security features had to be retrofitted into the program for
Department use, and additional work is still needed to make the system fully compatible with
existing Department accounting and budgeting systems, at additional costs. Per 5 Foreign Affairs
Manual (FAM) 619 a., security safeguards must be in place to protect the automated information
system and its data. IRM has not been sufficiently involved to ensure proper coordination and
adherence to Department regulations.

Recommendation 4: The Bureau of European and Eurasian Affairs should require Regional
Support Center Frankfurt to bring its software development activities into compliance with
Department of State regulations. (Action: EUR)

        CMD is RSC Frankfurt’s solution to a Department challenge: how best to track, organize,
and access host-country contacts. More than 200 embassies and consulates, as well as the Office
of Protocol, now use this application. Some users would profit from additional training. IRM
indicated that CMD development benefited significantly from RSC Frankfurt’s collaboration
with EUR embassies and that the software is more responsive to clients’ needs and less
expensive than if it had been developed in Washington. CMD has also proved more cost
effective than commercial applications. Its startup cost for 10 users is approximately $1,600,
with annual costs of about $400. Startup costs for a commercial application for an equal number
of users is $17,000, with annual costs of about $11,000. The OIG team estimates that CMD has
saved the Department $3.5 million, plus $2.5 million in recurring annual savings. If the
remaining 20 EUR embassies and consulates adopt CMD, cost savings would be $425,000
annually. Standardizing contact management software across EUR would also reduce the
learning curve for employees moving from post to post.


                                        5
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 5: The Bureau of European and Eurasian Affairs should implement a policy
requiring its posts to use the Contact Management Database software. (Action: EUR)

       Both IRM and RSC Frankfurt indicate that testing software at the RSC would be
beneficial to the Department. However, no steps have been taken to formalize such an
arrangement. Failure to take advantage of the possible synergies risks higher costs to the
Department for software development.

Recommendation 6: The Bureau of Information Resource Management should conduct a cost-
benefit analysis of using Regional Support Center Frankfurt as a test bed for software
development and, if feasible, take appropriate action. (Action: IRM)

Other Regional Management Initiatives

        RSC Frankfurt is piloting a regional contract for expendable supplies from a single
company, leveraging the U.S. Government’s large demand for office equipment, paper supplies,
forms, and other expendable supplies to obtain lower prices. Reaction by overseas posts has been
positive. RSC Frankfurt is evaluating the data to determine savings realized through the contract
and the feasibility of expanding it both within and outside EUR. Embassies that have
implemented this program have reduced their need for large stockpiles of expendable supplies
and for LE staff to manage them.

       Following the initial success of the expendable supplies contract, RSC Frankfurt is now
negotiating with a regional cell phone company to develop a standard package of services for
missions throughout Europe. Five embassies are piloting this initiative to determine cost savings
and quality of service. If the initiative is a success, RSC Frankfurt will consider expanding it.

        RSC Frankfurt took on an EUR initiative aimed at reducing storage costs at smaller
embassies by creating regional warehousing hubs that service two or more embassies. So far,
logistical challenges and the inability to identify adequate cost savings do not support further
development of this concept. RSC Frankfurt will continue to explore opportunities for combining
warehousing where the cost benefits appear favorable.

       RSC Frankfurt also contributed to a Department initiative to reduce voucher processing
costs worldwide through use of the Bureau of the Comptroller and Global Financial Services’
Post Support Unit. RSC Frankfurt has had success at some of EUR’s smaller missions; however,
a number of missions continue to process vouchers at costs that are higher than those of the Post
Support Unit. EUR and RSC Frankfurt encourage their missions to use the Post Support Unit but
do not mandate its use.

Connecting Regional Support Center Frankfurt and Department Efforts

         M/PRI is responsible for leading Department regionalization and standardization
activities. Along with Department regional bureau executive directors, the International
Cooperative Administrative Support Services (ICASS) Service Center, and the director of the
Bureau of Budget and Planning, M/PRI formed a regional initiatives council (RIC) to facilitate
better coordination and dissemination of initiatives from the field. The RIC prioritizes and writes
policy for initiatives from the field and distributes them to the Department. RSC Frankfurt has
                                        6
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

not been integrated into the RIC process. This oversight has hindered RSC Frankfurt’s efforts to
identify and develop innovative practices and risks significant lost opportunities for management
savings.

Recommendation 7: The Bureau of European and Eurasian Affairs, in coordination with the
Office of Management Policy, Rightsizing, and Innovation, should identify a staff member at the
Regional Support Center Frankfurt to coordinate the center’s management initiatives. (Action:
EUR, in coordination with M/PRI)

Locally Employed Staff Training

        The Foreign Service Institute (FSI) indicated that LE staff training has been reduced due
to lack of funding for travel of its instructors. Both RSC Frankfurt and FSI have attempted to
meet the training needs of LE staff by training and expanding the use of “adjunct” LE staff
faculty. This approach has allowed regional training centers to conduct training sessions
globally.

        FSI has placed one of its instructors in both the Florida and Bangkok regional centers to
oversee the adjunct faculty in the Western Hemisphere and Asia. FSI has not established a
similar instructor position at RSC Frankfurt.

       Informal Recommendation 1: The Bureau of European and Eurasian Affairs should
       require Regional Support Center Frankfurt to evaluate whether to request a full-time
       Foreign Service Institute position and, if feasible, take such action.

        RSC Frankfurt’s model for LE staff training is built around three LE staff instructors who
create and manage courses, two LE administrative assistants, and a U.S. direct-hire management
officer who brings an American perspective to the classroom. Because the RSC relies heavily on
the American and LE staff members assigned to Frankfurt, it has not maximized use of adjunct
faculty throughout EUR. By emphasizing training centered in Frankfurt, the RSC misses an
opportunity to teach more courses using adjunct faculty at a lower cost. It may also be possible to
eliminate two LE staff training positions in Frankfurt if the use of adjunct faculty were increased.

Recommendation 8: The Bureau of European and Eurasian Affairs should require Regional
Support Center Frankfurt to increase its use of adjunct faculty to expand training held outside
Frankfurt. (Action: EUR)

         The RSC is located in Consulate General Frankfurt, one of the largest diplomatic
missions in the world, with 26 separate agencies and offices represented there. Many of them
conduct their own training. There is no logistical coordination among agencies using consulate
facilities, resulting in confusion among trainees about where to report for instruction.
Establishing a single point of contact for all training programs would alleviate the problem.

       Informal Recommendation 2: The Bureau of European and Eurasian Affairs should
       require Regional Support Center Frankfurt to develop a mechanism to coordinate all
       training logistics within the Consulate General Frankfurt facility.


                                        7
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Resource Management
        The FY 2012 budget for RSC Frankfurt was $3,145,105. Staff include 9 Foreign Service
officers and 18 LE staff members. Consulate General Frankfurt provides ICASS support in all
areas except financial management services. RSC Frankfurt receives funding from EUR and
manages its own budget.

Current Staffing

       RSC Frankfurt staffing grew out of the original New Post Support Unit and has not been
reviewed since 1992. EUR and RSC Frankfurt have not developed a comprehensive plan to
implement a new vision for the RSC that addresses the importance of reducing LE staff positions
in a way that minimizes disruption to ongoing activities and reduces severance payments. In
addition to savings in salary costs, a reduced RSC footprint would lower the ICASS bill to EUR
by roughly $1 million per year.

        With the reduced staffing of RSC Frankfurt, a full-time deputy director would no longer
be justified. The deputy director function could be performed by one of the two other senior staff
members in the human resources or financial management unit.

Recommendation 9: The Bureau of European and Eurasian Affairs should review the Regional
Support Center Frankfurt mission and implement an appropriate staffing plan. (Action: EUR)

General Management Issues

        RSC Frankfurt faces challenges in managing LE personnel practices. The local
compensation plan authorizes a year of maternity leave and 6 weeks of annual leave a year.
Several LE staff members have been on prolonged leave during the past 5 years. Supervisors
state that hiring temporary employees takes so long that it is not productive to fill vacant slots.
Per 3 Foreign Affairs Handbook (FAH)-2 H-122.3, supervisors are responsible for determining
the number and type of employees required to accomplish the organization’s mission and how
work will be assigned. Not undertaking steps to provide adequate coverage during extended
personnel absences reduces productivity and diminishes morale.

       Informal Recommendation 3: The Bureau of European and Eurasian Affairs should
       require Regional Support Center Frankfurt to develop a leave plan at the beginning of
       each year and plan temporary staffing as needed.

        RSC Frankfurt has not made good use of the eligible family member program to fill long-
term staffing gaps. Drawing on the pool of available eligible family members in Frankfurt could
provide needed coverage at little additional cost and improve organizational effectiveness.

       Informal Recommendation 4: The Bureau of European and Eurasian Affairs should
       require Regional Support Center Frankfurt to develop a pool of temporary eligible family
       member employees to fill staffing gaps.



                                         8
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Human Resources Management

        RSC Frankfurt’s capsule position descriptions for U.S. direct-hire personnel are out of
date, as are recruitment materials for LE staff members. Accuracy in these materials is necessary
to attract appropriately qualified staff.

Recommendation 10: The Bureau of European and Eurasian Affairs should require Regional
Support Center Frankfurt to update recruitment materials for U.S. direct-hire and locally
employed staff. (Action: EUR)

        RSC Frankfurt does not have an orientation program for new employees, nor does
management make clear to new employees the RSC’s professional standards, work goals, travel
commitments, reporting requirements, mission, and vision. Per 3 FAM 7244, all newly appointed
employees should be given assistance in adjusting to their employment and should be advised
fully regarding the conditions of mission employment by means of a planned orientation
program. The lack of such a program diminishes productivity.

Recommendation 11: The Bureau of European and Eurasian Affairs should require Regional
Support Center Frankfurt to implement an orientation program for new employees. (Action:
EUR)

        RSC Frankfurt submitted 8 of 18 LE staff performance evaluations late in 2011 and 5 of
18 late in 2012. Guidance in 3 FAH-2 H-312 b. (6) (a) and (b) outline the need for objective and
timely performance reports. Failure to submit evaluation reports on time diminishes staff morale
and efficiency and leaves management vulnerable to personnel grievances and legal action.

Recommendation 12: The Bureau of European and Eurasian Affairs should require Regional
Support Center Frankfurt to incorporate the timely submission of locally employed staff
performance evaluations into all supervisors’ work requirements statements and note failure to
meet this requirement in their performance evaluations. (Action: EUR)

        Employees indicate a lack of communication among offices within RSC Frankfurt.
Although the director holds weekly staff meetings, important information is not discussed in
these meetings. Units tended to pass critical program information that has implications for other
units either in casual meetings, in the hall, or in private meetings with the director. The absence
of open communication within RSC Frankfurt has resulted in needless confusion and strife.
Encouraging communication is a fundamental aspect of human resources management. The
absence of such communication results in loss of productivity.

       Informal Recommendation 5: The Bureau of European and Eurasian Affairs should
       require Regional Support Center Frankfurt to implement mechanisms to increase
       interoffice communication.

International Cooperative Administrative Support Services

         RSC Frankfurt employees are frustrated by a lack of information technology support both
at their desks and in setting up for and troubleshooting during training and seminars. There is
considerable confusion within the RSC about the function of the Information Technology office.
                                         9
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Inadequate knowledge about information technology support reduces operational efficiency and
increases tension among staff members.

       Informal Recommendation 6: The Bureau of European and Eurasian Affairs should
       require Regional Support Center Frankfurt to issue an administrative notice explaining
       how staff should obtain administrative support from the Information Technology office.




                                      10
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of European and Eurasian Affairs should discontinue
Regional Support Center Frankfurt’s post assistance and review visits. (Action: EUR)

Recommendation 2: The Bureau of European and Eurasian Affairs, in coordination with the
Bureau of Human Resources, should eliminate financial management officer position 57-
500000010, human resources officer position 57-507000 020, and general services officer
position 52- 010124 010. (Action: EUR, in coordination with DGHR)

Recommendation 3: The Bureau of European and Eurasian Affairs should eliminate two
locally employed financial management analyst positions and one human resources specialist
position. (Action: EUR)

Recommendation 4: The Bureau of European and Eurasian Affairs should require Regional
Support Center Frankfurt to bring its software development activities into compliance with
Department of State regulations. (Action: EUR)

Recommendation 5: The Bureau of European and Eurasian Affairs should implement a policy
requiring its posts to use the Contact Management Database software. (Action: EUR)

Recommendation 6: The Bureau of Information Resource Management should conduct a cost-
benefit analysis of using Regional Support Center Frankfurt as a test bed for software
development and, if feasible, take appropriate action. (Action: IRM)

Recommendation 7: The Bureau of European and Eurasian Affairs, in coordination with the
Office of Management Policy, Rightsizing, and Innovation, should identify a staff member at the
Regional Support Center Frankfurt to coordinate the center’s management initiatives. (Action:
EUR, in coordination with M/PRI)

Recommendation 8: The Bureau of European and Eurasian Affairs should require Regional
Support Center Frankfurt to increase its use of adjunct faculty to expand training held outside
Frankfurt. (Action: EUR)

Recommendation 9: The Bureau of European and Eurasian Affairs should review the
Regional Support Center Frankfurt mission and implement an appropriate staffing plan. (Action:
EUR)

Recommendation 10: The Bureau of European and Eurasian Affairs should require Regional
Support Center Frankfurt to update recruitment materials for U.S. direct-hire and locally
employed staff. (Action: EUR)

Recommendation 11: The Bureau of European and Eurasian Affairs should require Regional
Support Center Frankfurt to implement an orientation program for new employees. (Action:
EUR)

Recommendation 12: The Bureau of European and Eurasian Affairs should require Regional
Support Center Frankfurt to incorporate the timely submission of locally employed staff

                                       11
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

performance evaluations into all supervisors’ work requirements statements and note failure to
meet this requirement in their performance evaluations. (Action: EUR)




                                      12
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Bureau of European and Eurasian Affairs should require
Regional Support Center Frankfurt to evaluate whether to request a full-time Foreign Service
Institute position and, if feasible, take such action.

Informal Recommendation 2: The Bureau of European and Eurasian Affairs should require
Regional Support Center Frankfurt to develop a mechanism to coordinate all training logistics
within the Consulate General Frankfurt facility.

Informal Recommendation 3: The Bureau of European and Eurasian Affairs should require
Regional Support Center Frankfurt to develop a leave plan at the beginning of each year and plan
temporary staffing as needed.

Informal Recommendation 4: The Bureau of European and Eurasian Affairs should require
Regional Support Center Frankfurt to develop a pool of temporary eligible family member
employees to fill staffing gaps.

Informal Recommendation 5: The Bureau of European and Eurasian Affairs should require
Regional Support Center Frankfurt to implement mechanisms to increase interoffice
communication.

Informal Recommendation 6: The Bureau of European and Eurasian Affairs should require
Regional Support Center Frankfurt to issue an administrative notice explaining how staff should
obtain administrative support from the Information Technology office.




                                      13
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                         Name Arrival Date
Director, EUR-Bureau of International Organizations Joint
  Executive Office                                            Margaret Uyehara       09/12
Deputy Director, EUR-Bureau of International
  Organizations Joint Executive Office and Director, RSC
  Frankfurt                                                   Michael S. Tulley      08/10
Deputy Director, EUR-Bureau of International
  Organizations Joint Executive Office                        Francisca Helmer       07/10
Deputy Director, EUR-Bureau of International
  Organizations Joint Executive Office                      Jeffrey A. VanDreal      01/13
Deputy Director, RSC Frankfurt                                 James K. Stiegler     07/10
Chiefs of Sections:
   Regional Human Resources-Job Evaluation                   James E. Hostetler      06/12
   Regional Human Resources-Merit Based Compensation            Ronnie McCall        06/10
   Regional Financial Management                            Michael A. Chung*        08/11
   Training and Development                                    Maura V. Pellet       07/10
   Regional General Services                                     Neill G. Krost      08/11
   Regional Information Technology                              Brian J. Hering      09/10

*Departed 02/13.




                                      14
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CMD              Contact Management Database

Department       U.S. Department of State

EUR              Bureau of European and Eurasian Affairs

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

FSI              Foreign Service Institute

ICASS            International Cooperative Administrative Support Services

IRM              Bureau of Information Resource Management

LE               Locally employed (staff)

M/PRI            Office of Management Policy, Rightsizing, and Innovation

OIG              Office of Inspector General

RIC              Regional initiatives council

RSC              Regional Support Center

Web RABIT        Web-Based Resource Allocation and Budget Integration Tool




                            15
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
